  DEPARTMENT OF HOMELAND SECURITY

      Office of Inspector General



                Letter Report:

            Independent Review of
            The U.S. Coast Guard’s
             Reporting of FY 2005
              Drug Control Funds




               Office of Audits
                     1
OIG-06-27                            March 2006
                                                                      Office of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                     March 20, 2006


MEMORANDUM FOR:              Admiral Thomas H. Collins
                             Commandant
                             U.S. Coast Guard


FROM:                        Richard L. Skinner
                             Inspector General

SUBJECT:                     Independent Review of the U.S. Coast Guard’s Reporting of FY 2005
                             Drug Control Funds

The Office of National Drug Control Policy (ONDCP) requires the U.S. Coast Guard (Coast Guard)
to submit an annual Detailed Accounting Submission (Submission), as authorized by 21 U.S.C. §
1704(d) and ONDCP Circular, Drug Control Accounting (Circular), April 18, 2003, to ONDCP.
The Submission is included in this report as Appendix A, and the Circular is included as Appendix
B. The Submission is the responsibility of Coast Guard’s management.

We have reviewed the reasonableness and accuracy of the drug methodology used to calculate
obligations of prior year budgetary resources by function and by budget decision unit according to
the criteria specified in Section 6(b) of the Circular; and whether the drug methodology disclosed in
the Submission was the actual methodology used to generate the table required by Section 6(a) of the
Circular. Drug methodology means the process by which the Coast Guard calculates its drug-related
financial statistics according to ONDCP requirements.

Our review was conducted in accordance with attestation standards established by the American
Institute of Certified Public Accountants. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the reasonableness and
accuracy of the drug methodology used to calculate obligations of prior year budgetary resources by
function and by budget decision unit according to the criteria specified in Section 6(b) of the
Circular; and whether the drug methodology disclosed in the Submission was the actual
methodology used to generate the table required by Section 6(a) of the Circular. Accordingly, we do
not express such an opinion.



                                            1
Our review disclosed that the Independent Auditors’ Report1 for the Department of Homeland
Security’s (DHS) balance sheet as of September 30, 2005, identified several material weaknesses to
which the Coast Guard directly contributed. Those material weaknesses were identified in the areas
of financial management oversight; financial reporting; financial systems security; undelivered
orders, accounts payable, and disbursements; budgetary accounting; actuarial liabilities; fund
balance with Treasury; intragovernmental and intradepartmental balances; property, plant, and
equipment; and operating materials and supplies. Material weaknesses are reportable conditions in
which the design or operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements, in amounts that would be material in relation to the
financial statements being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Reportable conditions are
matters coming to the auditors’ attention relating to significant deficiencies in the design or
operation of the internal control over financial reporting that, in the auditors’ judgment, could
adversely affect DHS’ ability to record, process, summarize, and report financial data consistent with
the assertions by management in the financial statements. The material weaknesses cited in this
paragraph deviate from the criteria that financial systems supporting the drug methodology should
yield data that fairly present, in all material respects, aggregate obligations from which drug-related
obligation estimates are derived.

We did not review, as required by the Circular, whether data presented are associated with
obligations against a financial plan that, if revised during the fiscal year, properly reflects those
changes, including ONDCP’s approval of reprogrammings or transfers affecting drug-related
resources in excess of $5 million. Further, we did not review whether the data presented are
associated with obligations against a financial plan that fully complied with all Fund Control Notices
issued by the ONDCP Director under 21 U.S.C. § 1703(f) and Section 8 of the ONDCP Circular,
Budget Execution. We did not review these matters because of incomplete criteria against which to
evaluate the subject matter, in terms of measurability and applicability for multi-mission bureaus, of
which the Coast Guard is one. We recommend that the Coast Guard, in conjunction with DHS,
obtain formal guidance from ONDCP and legal counsel, as appropriate, on appropriate and suitable
criteria to evaluate these matters for multi-mission bureaus.

Based on our review, except for the effects, if any, of the material weaknesses discussed in
paragraph four of this report, nothing came to our attention that caused us to believe that the drug
methodology used to calculate obligations of prior year budgetary resources by function and by
budget decision unit is not reasonable and accurate, in all material respects, in conformity with
criteria specified in the Circular, and that the drug methodology disclosed in the Submission was not
the actual methodology used to generate the table required by the Circular, in all material respects.

We provided a copy of this report in draft to the Coast Guard. The Coast Guard responded that it
generally agreed with the findings.

This report is intended solely for the information and use of the Coast Guard, DHS, ONDCP, and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

1
 See DHS Office of Inspector General Report Number OIG-06-09, November 2005. KPMG LLP, an independent
public accounting firm, performed the audit of DHS’ balance sheet as of September 30, 2005.


                                              2
Should you have any questions concerning this review, please call me, or your staff may contact
David M. Zavada, Assistant Inspector General for Audits, at (202) 254-4100.




                                           3
DISTRIBUTION

DHS

Secretary
Deputy Secretary
Executive Secretary
General Counsel
Chief of Staff
Under Secretary for Management
Assistant Secretary for Public Affairs
Assistant Secretary for Policy
Assistant Secretary for Legislative Affairs
Acting Chief Financial Officer
Chief Security Officer
DHS OIG Audit Liaison

U.S. Coast Guard

Commandant
Chief Financial Officer
USCG OIG Audit Liaison

Office of National Drug and Control Policy

Associate Director for Planning and Budget

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees as appropriate




                                              4
Appendix A




             5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
Appendix B




             20
21
22
23
24
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
